    U.S. DEPARTMENT OF COMMERCE
              Office ofInspector General




    National Institute ofStandards and
                            Technology


                            State of Ohio
               Department ofDevelopment
              MEPAward 70NANB5Hl188


                         Audit Report No. DEN-18604
                                          March 2010




-
•
1
~
                      Denver Regional Office ofAudits
U.S. Department ofCommerce                                                                                           Report No. DEN-18604 

Office ofInspector General                                                                                                      March 2010 




                                                                CONTENTS

Introduction ..................................................................................................................................... 1 

Findings and Recommendations ..................................................................................................... 2 

       I.      Questioned Subrecipient Costs ....................................................................................... .2 

              A.      MAGNET Questioned Costs ...................................................................................2 

              B.      TechSolve Questioned Costs ...................................................................................6 

              C.      Recipient's Response ...............................................................................................7 

              D.      OIG Comments ........................................................................................................ 9 

       II.     Excess Program Income ................................................................................................. 10 

              A.      Recipient's Response ............................................................................................. 13 

              B.      OIG Comments ...................................................................................................... 13 

       III. Internal Control Issues ................................................................................................... 14 

       IV. Recommendation ........................................................................................................... 14 

Summary Results of Financial Audit ............................................................................................ 15 

Appendix A: Objectives, Scope, and Methodology ...................................................................... 16 

Appendix B: Agency Response to Draft Report ........................................................................... 18 

Appendix C: Smmnary of Source and Application of Funds ....................................................... 35 

Appendix D: Summary of Financial/Compliance Audit .............................................................. 36 

U.S. Department of Commerce                                                   Report No. DEN-18604 

Office ofInspector General                                                               March 2010 



                                        INTRODUCTION

In September 2005, the National Institute of Standards and Technology (NlST) awarded
Manufacturing Extension Partnership (MEP) Cooperative Agreement No. 70NANB5H 1188 to
the Ohio Department of Development (ODOD) to continue operating an existing MEP center.
The September 2005 award funded the period July 1, 2005, through June 30,2006. The award
was later amended to extend the period an additional 12 months through June 30, 2007. Total
estimated project costs for the 24-month award period were $27,272,502, with the federal
government's share not to exceed $9,090,834, or 33 percent of allowable project costs.

In May 2007, we initiated an audit of the cooperative agreement to determine whether the
recipient complied with award terms and cond.itions and NIST operating guidelines for MEP
centers. The audit covered the 21-month period July 1, 2005, through March 31,2007, during
which time the recipient claimed project costs of $20,269,989 and received federal
reimbursements totaling $6,517,538.We examined the costs the recipient claimed to have
incurred as well as the cost claims of two grant subrecipients, Manufacturing Advocacy and
Growth Network (MAGNET) and TechSolve, Inc.

When we examined the recipient's fi nancial records, we found the total recorded expenditures
were actually$-              or $-           more than the project costs reported to NIST. We were
able to reconcile the recipient's financial records against the errors in its cost claims to NIST,
and we based the audit on the $-              project cost figure because this is the amount the
recipient would have claimed had it not included the errors in its financial reports to NIST.

As stated in appendix A, the objective of our audit was to detem1ine whether ODOD reported
costs to NlST, including costs incuned by subrecipients, that were reasonable, allocable, and
allowable in accordance with applicable federal cost p1inciples, cooperative agreement tenns and
conditions, and NIST policy, including MEP Operating Plan Guidelines. In our opinion,
ODOD's cost claims included unallowable costs. Amounts questioned in this report reflect the
results of our analyses.

We issued a draft report of our findings and recommendations to ODOD on November 30, 2009,
and ODOD responded on December 30,2009. Based on information provided in the response,
we adjusted our findings and recommendations as discussed in the respective sections of this
report.
U.S. Department ofCommerce                                                               Report No. DEN-18604 

Office ofInspector General                                                                          March 2010 



                                 F INDINGS AND RECOMMENDATIONS

Our audit questioned $6,781,041 in claimed costs. Of this amount, $6,773,534 was claimed by
the two MEP subrecipients, MAGNET ($4,095,476) and TechSolve ($2,678,058). The remaining
$7,507 in question was claimed directly by the recipient for employees whose salary and benefit
charges were also included in the recipient's indirect costs.

We also found that the subrecipients did not report program income generated under their
subawards to the recipient, and consequently the recipient did not report this information to
NIST. We determined the two subrecipients generated combined program income of $1,424,266
in excess of amounts needed to fund their nonfederal matching share costs for the year ended
June 30, 2006. 1 Neither the recipient nor the subrecipients requested written permission from
NIST to retain excess program income to fund future nonfederal project costs, which is required
by cooperative agreement terms and conditions as well as federal regulations.

As a result of the questioned costs and excess program income, ODOD received $2,057,12 1
more than it should have in federal funds. (See page 14 for a summary of this financial audit)

We also found that the fmancial reporting system ofsubrecipient MAGNET did not provide
accurate, current, and complete disclosure of the financial results of the MEP subaward.
MAGNET also did not maintain adequate property management standards.

I.    Questioned S ubrecipicnt Costs

ODOD's recorded MEP project costs for the period July 1, 2005, through March 31,2007,
included $21,333,564 reported by its two subrecipients, MAGNET($-             and TechSolve
($-          .

A. MAGNET Questioned Costs

The $~~ questioned costs claime~AGNET consists of ~in contractual
costs, ~ in personnel costs, and $- in indirect costs.

     1. Questioned Colltractual Costs

MAGNET reported $-                in contractual costs to ODOD for the period July 1, 2005,
through March 31, 2007. MAGNET provided us with documentation for the contractual costs
reported to the recipient, as well as documentation for an additional $-        in contractual costs
incurred during the period July I, 2005, through June 30, 2006, that it had not reported to
ODOD. We considered these previously unclaimed costs in our dete1mination of accepted
contractual costs, which adjusted MAGNET's total contractual costs to$-               We accepted


1
 Because NIST's requirements for utilizing program income to fund MEP centers' nonfederal matching share costs
apply to 12-month operating years, calculation of excess program income must be perfonned on a full 12-month
period; therefore, we did not examine program income generated and applied during the final 9 months of our 21 ­
month audit period.


                                                       2

U.S. Department ofCommerce                                                                Report No. DEN-18604 

Office ofInspector General                                                                           March 2010 



$-           of MAGNET's contractual costs for the period July 1, 2005, through March 31,
2007.

In analyzing MAGNET's contractual costs, we learned that it was accumulating and reporting all
of its costs not reimbursed by ODOD as contractual costs. MAGNET foll owed this practice
regardless of the line item under which the specific costs were recorded in its internal financial
records. We reviewed these expenses in their respective cost categories for each award year.

We questioned $5 18,419 of MAGNET's contractual costs incurred during the period July 1,
2005, through June 30, 2006, in the categories of personnel ($82,108), direct subs ($285,540),
and subcontractors2 ($1 50,77 1). MAGNET could not provide supporting documentation to prove
these costs were allocable to the MEP subaward. Instead, the costs were accumulated in
MAGNET's non-MEP project accounts and supposedly transferred into MEP project accounts,
although MAGNET's general ledger does not reflect these transfers. We asked MAGNET
officials for additional information regarding individual transactions that were moved from other
proj ects to the MEP accounts, but we were told that MAGNET transferred these cost share
amounts by summary, not by detail. MAGNET's only documentation related to the transfers is a
spreadsheet showing blocks of transferred costs. MAGNET's spreadsheet contains no detail on
specific transactions and does not explain why MAGNET concluded the costs were allocable to
its MEP subaward rather than other accounts to which they were charged.

Guidance in OMB Circular A-122 3 requires allowable costs to be adequately documented.
Without such documentation, we questioned $5 18,4 19 of MAGNET's undocumented transfers to
its MEP subaward.

We also questioned $8,563 of travel costs included in MAGNET's contrachtal costs from July l,
2005, through June 30, 2006. MAGNET claimed two trips to China, but it did not have prior
                                                                   4
approval from NIST, which is required by OMB Circular A-122 We also noted that MAGNET
staff traveled on foreign air carriers during these trips, which would have required additional
approval of the NlST grants officer, pursuant to Department of Commerce Financial Assistance
Standard Terms and Conditions, Section M.02.d.

               contractual cost claim fr~ 1, 2005 , through June 30, 2006, included a total of
             in personnel overhead ($~ and general and administrative (G&A) costs
              These costs should have been claimed as indirect costs.

OMB Circular A-122 5 defines direct costs as, "those [costs] that can be identified specifically
with a particular final cost objective ..." The overhead and G&A costs included in MAGNET's
contractual costs are not directly connected to the MEP subaward. Instead, they were combined
with other similar costs and allocated to the MEP subaward and other MAGNET projects by
applying the organization's indirect cost rates. OMB Circular A- 1226 states, " (A] cost may not

2
  "Direct subs" and "subcontractors" are categories of costs included in MAGNET's accounting records. 

3
  Attachment A, Section A.2.g. 

4
  Attachment B, Section 51 (c). 

5
  Attachment A, Section B.l. 

6
  Ibid. 



                                                        3

U.S. Department ofCommerce                                                     Report No. DEN-18604 

Office of Inspector General                                                               March 2010 



be assigned to an award as a direct cost if any other cost incurred for the same purpose, in like
circumstance, has been allocated to an award as an indirect cost." Therefore, we questioned
$-          of indirect personnel overhead and G&A costs claimed in the direct cost line item for
contractual costs.

Our draft audit report had questioned $123,72 1 in marketing expenses claimed by MAGNET as
contractual costs from July 1, 2005, through June 30, 2006. After reviewing infonnation
provided in ODOD 's response to the draft audit report, these costs are not being questioned in
the final report.

To summarize, MAGNET claimed $-                 in contractual costs - or the eriod July 1, 2005,
through June 30, 2006. These claims were $3 77,079 less than the $              in contractual costs
incurred. We accepted $-           of MAGNET's contractual costs for the year ended June 30,
2006, which results in $1 ,323,634 of the claimed costs being questioned. (See table 1.)


   Table 1. MAGNET Contractual Costs, July 2005 through June 2006

             Contractual Cost 
             Costs           Questioned         A ccepted
                      ries 
               Incurred           Costs              Costs

     ------~----------~
                                                         --~~~iiiiiiiii~
       Personnel                                               $    82,108
       Supplies/Direct Materials 
                                       0
       Direct Subs 
                                               285,540
       Equipment 
                                                       0
       Subcontractors 
                                            150,771
       Travel 
                                                      8
          Direct Costs 

       Personnel Overhead 

       G&A 

          Indirect Costs 

       Total Based on Financial 

       Records 

       Less: Incurred Costs Not 

       Claimed to NIST 

       Total Based on Costs 

       Claimed to State 


     Source: MAGNET documents

We also examined MAGNET's contractual cost claims for the period July 1, 2006, through
March 31, 2007, and found MAGNET also transferred subcontractor costs from non-MEP
accounts without detail. (MAGNET's general ledger also does not reflect these transfers.) We
questioned $-         of subcontractor costs for which MAGNET did not provide evidence that
the costs were allocable to the MEP subaward. MAGNET's only documentation related to the




                                                 4

U.S. Department ofCommerce                                                        Report No. DEN-18604 

Office ofInspector Geueral                                                                   March2010 



transfers is a spreadsheet showing blocks of transferred costs, which does not meet the OMB
Circular A-122 7 requirement that allowable costs be adequately documented.

While reviewing supporting documentation for a sample of travel expenditures, we found
receipts for a total of$. in alcoholic beverages on a travel expense report. OMB Circular A­
1228 states that costs of alcoholic beverages are unallowable. Therefore, we questioned $. of
MAGNET's contractual cost claim in the travel category.

MAGNET's contractual cost claim for the period Jul~, through March 31, 2007,
included a total of $-         n personnel overhead (~ and G&A costs ($-                         . These
                                                                            9
costs should have been claimed as indirect costs. OMB Circular A-122 defines direct costs as,
"those [costs] that can be identified specifically with a particular final cost objective ..." The
overhead and G&A costs included in MAGNET's contractual costs are not directly identifiable
with the MEP subaward, but rather were combined with other similar costs and allocated to the
MEP subaward and other MAGNET projects by applying the organization's indirect cost rates.
OMB Circular A-122 10 states, "[A] cost may not be assigned to an award as a direct cost if any
other cost incurred for the same pu~n like circumstance, has been allocated to an award as
an indirect cost." We questioned$-           in indirect personnel overhead and G&A costs
claimed in the direct cost line item for contractual costs.

Table 2 summarizes our calculation of the $717,943 in questioned contractual costs claimed by
MAGNET during the period July I, 2006, through March 31,2007.

    Table 2. MAGNET Contractual Costs, July 2006 through March 2007

                Cont ractual Cost              Costs          Questioned          Accepted 

                  Categories                 Incurred           Costs              Costs 

        Personnel
        Supplies/Direct Materials
        Direct Subs
        Equipment
        Subcontractors
        Travel
           Direct Costs
        Personnel Overhead
        G&A
          Indirect Costs
        Total

     Source: MAGNET documents




7
  Attachment A, Section A.2.g.
8
  Attachment B, Section 3.
9
  Attachment A, Secti on B.l.
10
   Ibid.


                                                   5

U.S. Department ofCommerce                                                     Report No. DEN-18604 

Office ofInspector General                                                                March 2010 



       2. Questioned Personnel Costs

MAGNET's practice is to include indirect overhead costs allocated to direct salaries as part of its
direct personnel cost claims. MAGNET's direct personnel cost claims of ~for the
period July 1, 2005, through March 31,2007, include -                of indirect overhead costs. As
previously noted, OMB Circular A-122 11 states that direct costs are identifiable with a specific
cost objective, while indirect costs are assigned to cost objectives based on an allocation process.
The overhead costs included in MAGNET's direct personnel claims were allocated to the MEP
subaward and MAGNET's other projects by applying the organization's indirect cost rates.
These overhead costs should have been claimed as indirect costs; thus, we questioned$­
of MAGNET's direct personnel costs.

       3. Questioned Indirect Costs

MAGNET's approved budget listed $~f indirect costs for the 2-year period of July 1,
~ugh            June 30,2007. As of March 31,2007, MAGNET had claimed indirect costs of
~ exceeding the approved budget by $19,450. Department of Commerce Financial
Assistance Standard Terms and Conditions, Section A.OS(f), limits allowable indirect costs to the
lesser of the line item amount for indirect costs in the approved budget, or the total allocable
indirect costs based on an approved indirect cost rate. Therefore, we questioned $ 19,450 of
MAGNET's indirect cost claims that exceed the approved budget.

In our analysis of allowable subaward costs, we considered the overhead and G&A costs that
were included in MAGNET's direct contractual and personnel cost claims, as indirect costs. We
accepted MAGNET's indirect costs up to the amount in the indirect cost line item in the
approved budget. Since MAGNET's indirect costs claimed through March 31,2007, exceeded
allowable indirect costs for the period through June 30, 2007, transferring the indirect costs that
were claimed within direct-cost line items to the indirect cost line item did not increase total
accepted subaward costs for MAGNET.

B. TechSolve Questioned Costs

Tech Solve claimed a total of $3,114,232 in questioned costs, consisting of ~of indirect
costs that were claimed as direct personnel charges and $. in travel costs. Similar to our
findings at MAGNET, TechSolve's direct personnel cost claims also included -                  of
overhead costs that should have been claimed in the indirect cost line item. We considered these
costs as indirect costs in our analysis of allowable subaward costs. Department of Commerce
Financial Assistance Standard Terms and Conditions, Section A.05(f), limits allowable indirect
costs to the lesser of the line item amount for indirect costs in the approved budget or the total
allocable indirect costs based on an approved indirect cost rate. TechSo~oved budget for
indirect costs for the period July 1, 2005, through June 30 2007, was$- - As of March
31, 2007, TechSolve had claimed indirect costs of $-             We accepted TechSol ve's indirect
costs up to the dollar amount of the indirect cost line item in the approved budget, which is
$436,174 more than TechSolve's claimed indirect costs.

11
     Attachment A, Sections 8. 1 and C. I.



                                                 6

U.S. Department ofCommerce                                                     Report No. DEN-18604 

Office oflmpector General                                                                 March 2010 




       1. Questioned Personnel Costs

TechSolve's direct personnel cost claims of$-             for the period July I, 2005, through
March 3 1,2007, include -            ofindirect overhead costs. These costs should have been
claimed as indirect costs because they are not directly connected to the MEP subaward. Instead,
they were combined with other similar costs and allocated to the MEP subaward and other
T~rojects by applying the organization's indirect cost rates. We questioned the
$- -of indirect overhead costs claimed as direct personnel costs.

       2. Questioned Travel Costs

We questioned $. for unallowable alcoholic beverages claimed by TechSolve in the travel
category. OMB Circular A- 122' 2 states that costs of alcoholic beverages are unallowable.

       3. Adjustments to Final Report

After adjusting for the acceptance of indirect costs claimed as direct personnel up to the indirect
cost line item, questioned costs for TechSolve are $2,678,058 .

Our draft audit report had questioned $883,898 of in-kind contributions claimed by TechSolve.
After reviewing infom1ation provided in ODOD 's response to the draft audit report, these costs
are not questioned in the final audi t report.

C.      Recipient's R esponse

ODOD submitted its response to our draft audit report on December 30, 2009. See appendix B
for ODOD 's response, which separately addressed 13 instances of questioned costs and excess
programs.

The majori ty of costs questioned in the draft audit report involved MAGNET's and TechSolve 's
practices of reporting much of their respective indirect costs within direct-cost line items.
ODOD's response included proposed budget revisions for both MAGNET and TechSolve. The
proposed budgets redistribute costs previously reported in the direct personnel and contractual
line items as indirect costs. Based on the proposed budget revisions, ODOD requests the grants
officer accept a total of $-         in costs questioned in the draft audit report, computed as
follows:

           $-            claimed as MAGNET contractual costs,
           $~!aimed as MAGNET personnel costs,
           $19,450 claimed as MAGNET indirect costs, and
           $-             !aimed as TechSolve personnel costs.


12
     Attachment B, Section 3.


                                                    7
U.S. Department ofCommerce                                                    Report No. DEN-18604 

Office ofInspector General                                                               March 2010 





ODOD's response requests the grants officer accept the $-           fiscal year 2006) and
$-          fiscal year 2007) in MAGNET contractual costs that were questioned in draft audit
report as not allocable to the MEP award. The response states that these costs were accumulated
in MAGNET's Product Development Group, a division of MAGNET jointly funded by MEP and
a state grant program. The response maintains that the MEP and the state grant program have
similar purposes and the services of the Product Development Group are consistent with the
goals of both funding programs.

MAGNET allocated Product Development Group between the MEP award and the state grant
                                     1
"for cost share reporting purposes. " However, the allocations were tracked on a separate
spreadsheet and were not reflected in MAGNET's general ledger. Although the response states
ODOD's belief that this was "a legitimate technique for tracking expenditures," 14 MAGNET will
provide greater transparency in the future by identifying Product Development Group costs that
directly support MEP clients.

ODOD requested the grants officer accept $~f MAGNET marketing expenses
questioned in our draft audit report. ODOD 's response included a summary of MAGNET's
MEP-related marketing activities and states that these activities were included in the MEP
operating plan approved by NIST.

ODOD's response also requests the grants officer retroactively approve $. . in travel costs,
which we questioned in our draft audit report because the costs were related to overseas travel
that had not been approved in advance by the grants officer, as required by MEP award tenns
and conditions . The response does not dispute that the overseas travel was not approved, but also
states ODOD's belief that the grants officer would have approved the travel in advance, had
MAGNET requested prior approval.

The response did not dispute the draft audit report's finding of $.   in questioned MAGNET
travel costs related to purchases of alcoholic beverages.

ODOD's response requested the grants officer accept the total $-            claimed by TechSolve
for in-kind contribution of software licenses it received from a third party. ODOD cited a letter
provided to TechSolve by the donor statin~market value of the licenses was more than
$-           on the date of donation. The ~!aim represented the portion ofTechSolve's
5-year amortization of the license value that fell within the audit period.

The response did not dispute our draft report's finding of $- n questioned TechSolve travel
costs related to purchases of alcoholic beverages.

ODOD did not dispute the draft report's finding that the ~of direct salary and benefit costs
were incorrectly allocated to the MEP award.



13
     0000 draft report response, p. 2.
14
     ODOD draft report response, p. 2.


                                                 8

U.S. Departme11t ofCommerce                                                   Report No. DEN-18604 

Office of Inspector Ge1tera/                                                             March 2010 



D. OIG Comments

We reviewed the proposed budget revisions for MAGNET and TechSolve, as submitted with
ODOD's response to the draft audit report. Although the methodology for removing indirect
costs from budgeted direct-cost line items appears reasonable, we were unable to reconcile the
proposed costs using MAGNET's and TechSolve's indirect cost rates. For MAGNET, proposed
indirect costs were significantly less than what would be allowable based on the organization's
rates. (See table 3.) Conversely, proposed indirect costs for TechSolve were slightly higher than
allowable based on TechSolve's approved rates. (See table 4.)

 Table 3. MAGNET Proposed Indirect Costs, July 2006 through March
                              2007
                                        ODOD               OIG
                                       Proposed          Computed         Difference
         --~~~~~---­
          July 2005 - June 2006 
                                          ($ 1,262,935)

          July 2006 - June 2007 
                                             (950,448)

                    Total 


         Source: ODOD draft report response and OIG calculation



Table 4. TechSolve Proposed Indirect Costs, July 2006 through March
                               2007

                                        ODOD
                                       Proposed                           Difference
         --~~~~~~~
          July 2005 - June 2006 
                                             $108,938

          July 2006 - June 2007 
                                                 9,216

                    Total 


         Source: ODOD draft report response and OIG calculation

Costs related to our findings that MAGNET's and TechSolve's claims included indirect costs in
direct-cost line items, causing actual indirect costs to exceed approved budgets, remain
questioned in the final audit report. As stated above, neither subrecipient's proposed indirect
costs agreed with amounts calculated based on each organization' s indirect cost rates.
Furthermore, ODOD's response did not include evidence that MAGNET's and TechSolve's
proposed budget modifications had been approved. The amounts will remain questioned until
budget modifications that appropriately redistribute indirect costs are approved, as required by
Title 15 ofthe Code of federal Regulations (CFR), Section l4.25(c)(5).



                                                 9

U.S. Department ofCommerce                                                                 Report No. DEN-18604 

Office of Inspector General                                                                           March 10/0 



While ODOD's response provided copies of MAGNET financial records related to the
questioned Product Development Group allocations, we were unable to determine the
allowability of the transactions. The records detail only the specific costs MAGNET claims to be
allocable to the MEP award, without descriptive detail supporting their allowability or
distinguishing them from costs not allocated to MEP. Furthermore, the MAGNET cost records
did not reconcile with amounts claimed. For MAGNET fiscal year 2006, the claimed amount of
transfers was$-          while the cost details provided in ODOD's response totaled$­
For fiscal year 2007, the documents provided with the response account for ~of al~
allocations to the MEP award, while the amount claimed through March 31,2007, was$ ­

Based on ( l ) the continuing lack of detail relating specific costs to specific MEP tasks, (2) lack
of evidence to distinguish claimed MEP costs from other costs within the Product Development
Group, and (3) inconsistencies between amounts claimed and document~vided in the
response to the draft audit report, we continue to question the claimed $-          allocation of
MAGNET Product Development Group costs to the MEP award.

We continue to question ~of MAGNET travel costs related to overseas travel for which the
recipient did not receive prior grants officer approval. Although ODOD's response stated its
belief that the grants officer would have approved the travel if requested, the trip remains
unapproved and in violation of the applicable regulation.

ODOD did not dispute $. of questioned travel expenses for purchases of alcoholic beverages by
MAGNET($. and TechSolve ($11). The recipient also did not dispute $-            in questioned
ODOD salaries and benefits that were incorrectly allocated to the award. These costs remain
questioned in the final audit report.

We now accept $-                in MAGNET marketing costs and $-                   ofTechSolve in-kind
contributions.

11.   Excess Program Income

We found that the two subrecipients did not report program income generated under the
subawards. As a result, 0000 did not report some of its program income to NIST.

Program income, as defined in 15 CFR, Section 14.2(aa), is revenue generated by work
performed under a financial assistance award. Tuition or other fees paid by manufacturers who
attend training classes and fees paid for services provided by MEP staff or contractors are two
common sources of program income in MEP centers. NIST generally allows MEP centers to use
program income to fund the non federal share of project costs.

We analyzed MAGNET's and TechSolve's accounting records for the period July 1, 2005,
through June 30, 2006, and found the two subrecipients had generated a combined program
income of $1,424,266 in excess of what was required to pay the non federa l share of project
costs. MAGNET generated $~f the excess and $-
      15
                                                                 was attributed to TechSolve.


IS Because   NIST's requirements for utilizing program income to fund MEP centers' nonfederal matching share costs


                                                         10 

U.S . Department ofCommerce                                                              Report No. DEN- 18604 

Office of Insp ector General                                                                       March 2010 




Our calculations of excess program income are based on each center 's requirements for
nonfederal cash outlays after accounting for state grant funds and questioned project costs. If any
of the costs questioned in this report are subsequently accepted by NIST, the calculated amount
of excess program income must be adjusted. (See tables 5 and 6 for our calculations of program
income by both subrecipients.)




   Table 5. MAGNET Program Income Analysis, July 1, 2005, through 

                          June 30, 2006 


      Costs Incurred
      Costs Questioned
      Costs Accepted
      Nonfederal Cost Share Ratio in Approved Budgeta x 67.47%
      Nonfederal Share of Accepted Costs              ~
      State Grant Funds Provided                      1     000
      Cash Requirement for Program Income
      Program Income Associated with Accepted Costsb
      Excess Program Income

      Source: OIG analysis

      a   The proposed nonfederal share in MAGNETs approved budget.$-                     is 67.47
      ~ercent of total budgeted costs of ~
       MAGNETs financial records indicate it earned ~in program income during the
      year ended June 30, 2006. We reduced total program income by a factor of. .percent to
      exclude from our calculation the program income associated with costs questioned in this




                                                                                                                   ;·

apply to 12-month operating years, we did not examine program income generated and applied during the final 9
months of our 21 -month audit period.


                                                       II
U.S. Department of Commerce                                                    Report No. DEN-18604 

Office of Inspector Ge11eral                                                              March 2010 



  Table 6. TechSolve Program Income Analysis, July 1, 2005, through 

                           June 30, 2006 


     Costs Incurred
     Costs Questioned
     Costs Accepted
     Nonfederal Cost Share Ratio in Approved Budgeta
     Nonfederal Share of Accepted Costs
     State Grant Funds Provided
     Cash Requirement for Program Income
     Program Income Associated with Accepted Costsb
     Excess Program Income

     Source: OIG analysis

     a The proposed nonfederal share in~e's approved budget,$-                     is 67.47
     rercent of total budgeted costs of$- ­
       TechSolve's fin ancial records indicate it earned - i n program income during the
     year ended June 30. 2006. We reduced total program income by a factor of - percent to
     exclude from our calculation the program income associated with costs questioned in this


Our draft audit repo1t stated that MAGNET's excess program income was $-   and
TechSolve's was ~ Upon accepting the costs questioned in the draft report, we adjusted
the calculations to the amounts shown above.

ODOD' s MEP op~n budget projected that MAGNET and TechSolve would generate
program fees of ~ but it indicated that all program income would be expended during
the operating year. We reviewed the operating plan for the year ended June 30, 2006, to
detem1ine whether the center advised NIST that it would be generating program income in
excess of its nonfederal matching share requirements.

In May 2006, NlST issued a universal amendment to all MEP cooperative agreements that were
effective as of July l, 2005, incorporating revised MEP General Terms and Conditions (April              ;.
2006), into all active awards. Section 15.F, "Excess Program Income," states:

       Program income in excess of what is required in an operating year to meet the
       non-federal share portion of the award may be carried over to the subsequent
       funding period, with the prior written approval ofthe grants officer [emphasis
       added], for the same purpose of the non-federal share of the annual operating
       budget.

We examined the terms and conditions of the cooperative agreement and the subaward
agreements with MAGNET and TechSolve and found no prior approval by the grants officer.
When recipients are allowed to use program income to fund the non federal share of program
expenditures, 15 CFR, Section 14.24(c), requires amounts in excess of any limits stipulated to be
deducted from total allowable project costs in computing the amount of federal funds for which



                                                12 

U.S. Department ofCommerce                                                    Report No. DEN- 18604 

Office ofInspector General                                                               March20/0 



the recipient qualifies. We reduced total accepted project costs for each subrecipient by its
respective excess program income in computing the amount of federal funds it should have
received during the year ended June 30, 2006.

   A. Recipient's Response

ODOD did not agree with OIG's calculation of MAGNET's program income. According to
~esponse, the total program income stated in the draft report ($-                includes
~f revenue generated by MAGNET's Product Development Group that was related to
the group's non-MEP portion of expenses. When this amount is deducte~.~~.2~iram income
stated in the draft audit report, adjusted MEP program income would be ~ Because the
~reduction in program income exceeds the $-                  excess program income in our draft
audit report, ODOD asserts that MAGNET did not generate excess program income.

ODOD's response explains that the methodology employed by TechSolve to calculate its
program income indicated it had no excess. According to ODOD, NIST did not provide guidance
on how MEP centers were supposed to calculate excess program income. TechSolve, in good
faith, developed a process that eliminated revenue and expenses from non-MEP activities from
total, firm-wide operations. Based on this methodology, TechSolve determined total MEP
expenses exceeded MEP revenue by about $. .in fiscal year 2006; thus, by TechSolve's
calcu lations there was no excess program income. In the absence of NIST guidance for
calculating excess program income, ODOD requests the grants officer accept TechSolve's
detennination that it had no excess program income for fiscal year 2006. TechSolve will revise
its process for computing program income if given specific guidance from NIST.

   B. OIG Comments

ODOD responded to our draft audit report findings related to each subrecipient's excess program
income, but did not comment on its failure to report any program income to NIST, irrespective of
determinations of excess program income.

MAGNET provided a spreadsheet to the auditors during fieldwork stating that its total MEP
program income ~~ear 2006 was ~ ODOD's response, while claiming that this
amount includes ~of non-MEP revenue, did not provide details of which revenue
elements to exclude, nor did it explain why its calculation of program income differs from
infonnation we obtained directly from MAGNET during our fieldwork. It is also important to
note that our calculation of program income excludes a pro rata share of revenue related to
MAGNET's MEP cost claims that were questioned in our draft audit report. As summarized in
table 5, we detennined $-           of MAGNET's reported program income was related to the
portion of MEP cost claims accepted. Because we continue to question the transfer ofProduct
Development Group costs included in MAGNET's cost claims, our adjustment accounts for the
group's revenue before determining excess program income.

The final report reduces MAGNET's excess program income from the $-           included in the
draft report to$-        The reduction is the result of our acceptance of MAGNET marketing
costs that had been questioned in the draft audit report.


                                                13 

U.S. Department ofConvnerce                                                    Report No. DEN-18604 

Office ofInspector Geneml                                                                 March 20/0 




In response to ODOD 's and TechSolve's statement that NIST did not provide guidance on
calculation of excess program income, we point to 15 CFR, Section 14.2(aa), which defines
program income as "gross income earned by the recipient that is directly generated by a
supported activity or earned as a result of the award." TechSolve's methodology is not in
agreement with the regulation in that it appears to define program income based on a netting of
total expenses against total revenue, rather than gross revenue generated as a result of program
expenditures. ODOD did not challenge our determination that TechSolve's total MEP program
income, before adjusting for questioned costs, was $-           for fiscal year 2006. We maintain
our methodology for calculating excess program income IS m accordance with the applicable
regulations and MEP award terms and conditions.

The final audit report reduces TechSolve's excess program income from the $-           included
in the draft audit report to$-       The reduction is the result of acceptance ofTechSolve's in­
kind contribution claims that had been predominately questioned in the draft audit report.

As demonstrated by the adjustments to our calculations upon our accepting costs that had been
questioned in the draft report, any reinstatement of questioned costs by the grants officer will
also result in a need to recalculate excess program income.

Ill. Internal Control Issues

Our draft report included an adverse finding and associated recommendation related to
MAGNET's internal accounting controls. Approval of the proposed restructuring of MAGNET's
budget to redistribute indirect costs from within direct-cost line items will alleviate our concerns
about the accuracy of MAGNET's financial repot1ing. Furthermore, ODOD 's response to our
draft report included evidence of a defense contract audit agency's review of MAGNET's
accounting system. The audit agency reported no deficiencies. Therefore, we removed the
findi ng and recommendation related to MAGNET's intemal controls from the final audit report.

IV. Recommendation

We reconunend the chief ofN IST Grants and Agreement Management Division disallow
$6,78 1,041 in questioned costs; deduct $1,424,266 in excess program income from total accepted
project costs from ODOD's subrecipients; and recover $2,057, 121 of excess federal funds.




                                                 14 

U.S. Department ofCommerce                                                       Report No. DEN-18604 

Office ofInspector General                                                                  March 2010 



                          SUMMARY R.ESUL TS OF FINANCIAL AUDIT

The results of our interim cost audit for the period July 1, 2005, through March 31, 2007,
which are detailed in appendix D, are summarized as follows:



Federal Funds Disbursed                                   $6,517,538
Costs Incurred                       $21,587,896
Less Questioned Costs                  6,781,041
Costs Accepted                        14,806,855
Less Excess Program Income             1 A24,266
Basis for Federal Share               13,382,589
Federal Cost Sharing Ratio              X 33.33%
Federal Funds Earned                                        4A60A17

Refund Due the Government                                 $2,057,121   a



a
     The refund due includes excess disbursements of federal funds in the amounts of $1,141,150 to
     MAGNET and $848,402 to TechSolve.




                                                  15 

U.S. Department of Commerce                                                  Report No. DEN-18604 

Office ofInspector General                                                              March 2010 



                 APPENDIX A: OBJECTIVES, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether ODOD reported costs to NIST, including
costs incurred by subrecipients, that were reasonable, allocable, and allowable in accordance
with applicable federal cost principles, cooperative agreement terms and conditions, and NIST
policy, including MEP Operating Plan Guidelines.

The audit scope included a review of costs claimed by ODOD during the award period July 1,
2005, through March 31, 2007. We performed our fieldwork during May, June, and August 2007
at ODOD in Columbus, Ohio, and MAGNET in Cleveland. We analyzed TechSolve's subaward
without a site visit.

To meet our objective, we

   • 	 interviewed ODOD officials,
   • 	 reviewed NIST award documents,
   • 	 examined ODOD's financial records, and
   • 	 interviewed officials and examined financial records of subrecipients MAGNET and
       TechSolve.

We also reviewed the following laws, regulations, and award requirements, and found instances
of noncompliance, as discussed in this report:

   • 	 Office of Management and Budget Circular A-87, Cost Principles for State, Local, and
       indian Tribal Governments
   • 	 Office of Management and Budget Circular A-122, Cost Principles for Nonprofit 

       Organizations 

   • 	 Office of Management and Budget Circular A-133, Audits ofStates, Local Governments,
       and Non-Profit Organizations
   • 	 15 CFR, Part 14, Uniform Administrative Requirementsfor Grants and Agreements with
       institutions ofHigher Education, Hospitals, Other Non-Profit, and Commercial
       Organizations
   • 	 15 CFR, Part 24, Uniform Administrative Requirements for Grants and Agreements to
       State and Local Governments
   • 	 Department of Commerce Financial Assistance Standard Terms and Conditions, MEP
       General Terms and Conditions
   • 	 cooperative agreement Special Award Conditions

We verified the validity and reliability of computer-processed data supplied by ODOD and its
subrecipients by directly testing data against supporting documentation. Based on our tests, we
concluded the computerized data were reliable for use in meeting our objectives.


                                               16 

U.S. Department of Commerce                                                   Report No. DEN-18604 

Office ofInspector General                                                               March 2010 




We analyzed nonstatistical samples of ODOD and subrecipient transactions, generally focusing
on the highest dollar value transactions and line items. Since we did not attempt to extrapolate
findings from sample analyses to all transactions, we believe our sampling methodology
represented a reasonable basis for the conclusions and recommendations in our report.

We obtained an understanding of the management controls ofODOD and its subrecipients by
interviewing ODOD and subrecipient officials; examining policies, procedures, and each entity's
most recent single audit report; and reviewing written assertions of ODOD and subrecipient
officials. Our report contains specific recommendations to address a control deficiency identified
at subrecipient MAGNET.

The audit was conducted under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006, and in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.




                                                17 

U.S. Department ofCommerce                                                                                  Report No. DEN- 18604 

Office ofInspector General                                                                                             March 2010 



                              APPENDIX B: AGENCY RESPONSE TO DRAFT REPORT



                               Department of
    Ohio I 
                   Development

   Tod Striddand. Govetnot     Usa htt·· McO~nif.l. Oitecotcr
   L" Filii• , Lt. Governor




                               December 30, 2009



                               Marie Barton, Acting Regional Inspector General for Audits
                               United States Department of Commerce
                               Office of Inspector General
                               Denver Regional Office of Audits
                               999 18"' Street. Suite 765
                               Denver, CO 80202-24 99

                               Dear Ms. Barton:

                               In response to draft audit report number DEN- 18604 concernmg lhe Manuf<Jcturing
                               Exlension Partnership (MEP) cooperative agreement 70NANBSH1 t 88. lhe Ohio
                               Department of Development (ODOD) respectfully submits this report on behalf of lhe
                               Sta te of Ohio and its subrectpients. MAGNET and TechSolve. We challenge several of
                               the findings of questioned costs.

                               We have responded in deta tl to each instance of questioned cos Is and excess program
                               income in the draft audit report We provide the ralionale and proposed resolutions for
                               $10,127,031 dollars of the q uestioned costs. We accept the draft audit findings related
                               to the remaining questioned costs of $7.s3g,

                               We look forward to receipt of the final audi t report. If you should have queslions
                               regarding the financial aspect of our response, please conlacl :

                               Jon Rayer. Fiscal Officer
                               Ohio Department of Development
                               77 Sou th High Street, zs•• Floor
                               Columbus OH 43216
                               614-466­




                               17 Sout~ lligh Stre.t             61c 1~es 2480
                               P.O. Box 1001                     800 1848 1300
                               Columbos. Ohio 43l!CH001 U.S.A.   \VWW development ohio.gov




                                                                    18 

U.S. Department ofCommerce                                                                Report No. DEN-18604 

Office of Inspector General                                                                          March 2010 





                    Questions regarding the technical aspects of Ohio MEP Program should be addressed
                    to:

                    Beth Colbert, Program Administrator
                    Ohio Department of Development
                    77 Sou th High Street, 25:1> Floor
                               OH 43216




                    Director
                    Technology & Innovation Division
                    Ohio Department of Development


                    Enclosure

                    Cc (w/o encl): Laura Cesario, Chief, NIST Grants and Agreeme nts Management
                                    Division
                    CC (w/ encl): 	 Candace Jones, Chief Legal Counsel, Ohio Department o f Development
                                    Gary Conley. President. Tech Solve
                                    Dan Berry, President, MAGNET
                                    Jon Rayer, Fiscal Officer. ODOD
                                    Beth Colbert, Program Manager, ODOD




                                                       19 

U.S. Department ofCommerce                                                                                                 Report No. DEN- 18604 

Office of Inspector General                                                                                                           Marc/12010 





                              Department of
   Ohio I                     Development

   Ted Strickland. Governor   Lisa Patt·Md>anlet, Director
   Lee Fisher, Lt. Govemor




                                     Ohio Department ofDevelopment Response 

                                                             to 

                                              Draft Audit Report # DEN-1 8604 

                        United States Department of Commerce, Office ofInspector 

                                                 General 



                 On November 30, 2009, the Ohio Department ofDevelopment (ODOD) received draft
                 audit report number DEN-18604 from the United States Department of Commerce,
                 Office.of Inspector General. The report details preliminary findings from a May 2007
                 audit of National Itistitute ofStandards and Technology (NJST) Manufacturing Extension
                 Partnership (MEP) Cooperative Agreement No. 70NANB5H1188 for the period July 1,
                 2005 tluough March 31, 2007. During tbe time period covered by the audit, ODOD
                 served as the recipient of funding awarded by NIST MEP. As part of the agreed upon
                 operational plan, ODOD awarded the bulk of the funding to two subrecipient
                 organizations, the Manufacturing Advocacy and Growth Network (MAGNET) and
                 TechSolve, Inc. MAGNET provided NIST MEP-sponsored services and programs
                 primarily throughout northern Ohio, and TechSolve, Inc. provided NIST MEP-sponsored
                 services and programs primarily throughout southern Ohio.

                 The draft audit report includes 13 instances ofquestioned costs and excess program
                 income related to ODOD and its subrecipients. This document serves as ODOD's
                 response to the preliminary findings in DEN-18604.

                 The following narrative and supporting Attachments provide detailed responses to the
                 questioned costs and excess program income identified in the draft audit report, and
                 presents evidence to support ODOD's position that some questioned costs should be
                 considered allowable. Specifically, ODOD disputes $10,127,031 in questioned costs and
                 excess program income, and respectfully requests that the ODOD proposed resolutions be
                 accepted.

                 1. Transfer ofContractual Costs • MAGNET

                 The
                 and$
                       d-ft
                         audit report's preliminary fmdings indicated that ~$
                                              1
                                                                                         in FY06
                              n FY07 of MAGNET's contractual costs was found not to be directly
                                               )


                 ' Items identified in the narrative as ~pplicable to FY06 refer to the period July I, 2005 tl>.rough June 30,
                 2006, and those identified in the narrative as applicable to FYO? refer to the period July I, 2006 through
                 March 31. 2007.




                                                                         20 

U.S. Department ofCommerce                                                                            Report No. DEN-18604 

Office ofInspector General                                                                                       March 2010 





             allocable to the MEP subaward. The audit report states that MAGNET moved these costs
             from a non-MEP account into the MEP account.

             The non-MI!P accow1t referred to in the draft audit directly corresponds with
             MAGNET's Product Development Group, a division of MAGNET that is jointly funded
             by the NIST-MEP subaward and by an Ohio Edison Program grant. AU of the activities
             conducted by the MAGNET Product Development Group are promoted by NIST as a
             critical MEP offering and by the Ohio Edison Program as a critical element of
             technology-based economic development. The MAGNET Product Development Group
             provides services to small- and medium-sized manufacturers in a manner consistent with
             both the intended purpose of the MEP subaward and the intended purpose ofODOD's
             Edison program grant funding. Therefore, because the Product Development Group is
             jointly funded by both the federal and state programs for the same purpose, MAGNET
             accumulated costs for the Product Development Group and subsequently allocated those
             costs for cost share reporting purposes between Edison and MEP activities.

             While MAGNET maintained a separate spreadsheet that detailed the pool ofexpenses for
             the Product Development Group, MAGNET originally allocated undifferentiated costs
             from the Product Development Group exp enses to satisfy the MEP subaward cost-share
             requirement; MAGNI:."T did not make individual transfers within its general ledger to
             correspond to the expenses allocated from the Product Development Group. While
             MAGNET's approach was a legitimalc technique for tracking expenditures, MAGNET
             l 1<1S addrcs~cd th<:: audi t issue and 1>rovidcd g•·catcr 1ransparcncy by identifying spcci fie
             costs incum:d by the Product Development Group that directly supported MEP clients.
             The .ident ified costs arc included as Attac hment A . This action corrects the issue
             identified in the draft nudit, as specific co5ts arc now allocated directly to the .MBP
             subaward.

             Pwposed Ruolution: W~fully request that A tt:~ch mcnt A be accepted as the
             resolution regarding the ~~~ questioned contractual costs as specific costs are
             now clearly allocated directly to the MEP subaward.

             2. !'rlnrketing 1!:-cpenses- MAGNET

             The draft audi t report's prelin1innry findings indicated that $. .in costs for
             marketing materials is unallowable due to allocation across multiple activities and lack of
             prior approval.

             During the time period in question, MAGNET undertook the following marketing
             activities to support the MEP program in northern Ohio:

                    o 	 Content, graphics and daily updating for MAGJ\ET's two websites:
                                   www.ma!!nctwork.org and www.magnctpdd.org
                    o Content, graphics and maintenance of MAGNET's e-marketing program.
                        including the following newsletters:
                                   MAGNET Insider (a monthly events calendar)



                                                            2




                                                            21 

U.S. Department ofCommerce                                                                          Report No. DEN-18604 

Office of /11spector General                                                                                   March 20/0 





                                     Manu facturing Roundup (bimonthly news on advanced 

                                     manufacMing topics) 

                                     MAGNET Public Polley News (quarterly news on local, regional, 

                                     state and federal Jegislatioolpolicy) 

                                     As needed email blasts to promote MAGNET events, programs 

                                     and initiatives. 

                     o	   Content and graphics for MAGNET print materials, such as sales collateral,
                          brochures, flyers, and the print version of the Manufacturing Roundup.
                     o	   Content, promotion and registration for MAGNET events, workshops,
                          seminars.
                     o	   Creation, placement and budgeting for print, radio, T V and internet
                          advertising.
                     o	   An ongoing media relations campaign that includes contacts at print , radio,
                          TV and internet outlets throughout Northern Ohio.
                     o	   Creation of client "success sto.ries" lhat are required by NJST/MEP.

              All of these marketing activities promote and support the MEP mission and are part of
              the MEP operating plan. Furthermore, MAGNET accumulates direct marketing costs in
              total under the MEP program u.sing its project cost system. In its project cost system, any
              project number that begins with the Jetter G is associated with the MEP program. The
              marketi ng department uses project number G40 103, and all of the MEP-related marketing
              costs were acc\tmulated under this project number. Recognizing that the marketi ng
              department does some support for MAGNET's Business Incubator, ten pcn;ent oftbe
              marketing costs are al located to that progrum. The percentage of costs atrril>utablc to the.
              Bus.incss Incubator marketing is reviewed s em i-annually and is modified as required.
              This approach results in a reasonable allocation of the marketing costs out of the MEP
              p rogram based on the business activit ies of MAGNET.

              With respect to the preliminary audit flllding that MAGNET lacked prior approval for
              marketing activities, marketing activities were approved as a program expense in the
              approved operating plan. Specifically, MAGNET's original budget narrative, as
              approved, identifies personnel to perform marketing activities.

              Proposed Reso.lwion: We     rcspectfillly~hat marketing activities are considered         to
              have received prior approval and that  ~f marketing costs be determined to be
              allowable under the MEP program.

              3. Tr11vel Expe11$eS- MAGNET

              The draft audit report's preliminary findings identify ~in questioned travel costs
              related to two trips to China for which MAGNET did not have prior approval from NIST.

              We do not dispute this finding; there was no prior approval for the trip. It is important to
              note, however, that this was the first time MAGNET had an employee travel overseas for
              MEP-related business, the trip was with a group of potential MEP c lients and subject
              matter experts on Ch inese trade (exporting and importing), and foreign air carriers were



                                                           3




                                                           22 

U.S. Department ofCommerce                                                                         Report No. DEN-18604 

Office of Inspector Geneml                                                                                    March 2010 





             used only as needed to accomplish the mission of the trip. MAGNET's goal for the trip
             was to assist northern Ohio's manufacturing base enter the Chinese market.

             Proposed Resolution: Had MAGNET requested prior approval, we believe NIST would
             have recognized the China effort as supportive of MEP activities and that the request for
             travel would have been granted. Therefore, while we do not dispute that prior approval
             was not sought appropriately, we respectfully request that the circumstances be taken into
             account and that approval now be granted retroactively which would allow the ~n
             questioned travel costs to be considered allowable costs.

             4. l11direct Costs Reported as Contractual Costs - MAGNET

             The draft
             FY06 and
                       a-·          t"s pre liminary findings indicated that $ -       $-
                                   in FY07) of personne l overhead and general and administrative
                                                                                                   in

             (G&A) costs were reported on the direct contractual line item for MEP cost-share. The
             draft audit report further states that the indirect costs were combined with other similar
             costs and allocnied to the MEP subaward.

             MAGNET developed its hudgetunder the as.~umption that all cost-share related expenses,
             regardless of type, were to be reported as a col1tractual expense. As a resu lt, MAGNET
             incorrectly reported personnel overhead and G&A as direct costs (contractual expense)
             instead of reporting them as indirect costs. We do not dispute the charac terization of
             personal overhead and G&A as indirect expenses.

             The audit report further states that the ind irect costs were combined with other simi.lar
             costs and allocated to the MEP s ubaward. This is an incorrect statement. The indirect
             costs in question were not combined with direct costs in the general ledger; instead, they
             were combined on tbc billing statement on ly. Therefore, while we agree that the indirect
             costs should have been reported separately, the audit finding needs to be clarified as these
             questi oned coStS were never combined with direct ~.:osts in the gcnerall edger.

             Pmposed Resolu tiou: We propose that MAGNET be allowed to rc-report its cost-share
             expenses for the audit period to identify them in the correct cost line items, and that the
             budget for the period be amended to correspond to the revised reporting. Attachm ent B
             contains the proposed revised budgets for FY06 and FY07 for MAGNET that would
             accoulll for the accurately defined direct and indirect costs. We respec tfully request
             ;~cceptance of this revised budget, which would allow the$               of pe rsonnel
             overhead and g eneral and administrative (G&A) costs to be considered 111Jowable costs.

             5. Alcoh olic Beverage E.."<pensel· - M AGNET

             The draft audit report's preliminary findings idcmify S.   in questioned costs related to
             alcohol ic beverage e xpenses.

             MAGNET has procedures in place to segregate any alcoholic beverages out in expense
             reports so they can be eliminated from cost match reporting or from regulatory indirect



                                                          4




                                                          23 

U.S. Department ofCommerce                                                                            Report No. DEN-18604 

Office ofl 11spector General                                                                                     March 2010 





              rate calculations. This procedure is, for the most part, highly effective. These particular
              expenses were missed in the elimination process of compiling cost figures.

              Proposed Resolution: We do not dispute these findings.

              6. Person11el Costs - MAGNET

              The draft audit report's preliminary findings indicated that ~fpersonncl
              overhead and general and administrative (G&A) costs were reported in the direct
              personnel line item of the MEP subaward. The draft audit report further states that the
              indirect costs were combined with other similar costs and allocated to the MEP subaward.

              This issue is similar to the finding discussed under Item #4 above. MAGNET assumed
              that all personnel costs, direct and indirect, shou ld be reported in the personnel line item.
              The audit report correctly identifies personnel overhead and G&A expenses as indirect
              costs, and MAGNET mistakenly reported these costs as direct costs. As with the costs
              discussed under Item #4 above, the expenses were accumulated costs, and as such are
              allowable expenses. The personnel overhead is applied to direct labor charges, and the
              G&A is applied to total direct costs.

              MAGNET's budget for the audit p eriod, as approved by NIST as part of the Ohio MEP
              Operational Plan, reflects that this issue is a report ing matter only and was not a result of
              overspending by MAGNET for indirect costs. The total budget for personnel is an
              amoum su1Iic1ent to cover both the direct personnel salary costs and the personnel
              overhead and related G&A charges incorrectly reported on the personnel line item.

              The draft audit report states that the indirect costs were combined with other simi lar costs
              and allocated to the MEP subaward. This is an incorrect statement. The indirect costs in
              question were not combined with direct costs in the general ledger; instead. they were
              combined on the billing statement only. Therefore, whi le we agree that the indirect costs
              should have been reported separately, the audit finding needs to be clarified as these costs
              were never combined with d irect costs in the general ledger.

              Proposed Resolution: lr is proposed that M AGNET be allowed to re·rcport its expenses
              for the audit period to identify personnel overhead and G&A in rhe correct cost line
              items, and that the budget .for the period be amended to COITespond to the revised
              reporting. Attach ment B contains the proposed revised budgets for FY06 nnd FY07 for
              MAGNET that would account for the accurately cie fi ned ciirect and indirect costs. We
              respectfully request acceptance ofthis revised budget, which would allow the$­
              of personnel overhead and general and administrative (G&A) costs to be considered
              a llowable cosrs.

              7. Indirect Costs Til at E:v:ceeded Approved Budget - i'viAGNET

              The drafi audit report's preliminary findings identified S 19,450 in ind irect costs in ClCCCSS
              of MAG NET's approved budget for the cumulative audit period.



                                                             5




                                                             24 

U.S. Department ofCommerce                                                                        Report No. DEN-18604 

Office ofInspector General                                                                                   March 2010 





             Proposed Resolution: Attachment B contains the proposed revised budgets for FY06
             and FY07 for MAGNET that would account for the accurately defined indirect costs. We
             respectfully request acceptance of this revised budget, which would a llow the $19,4 50 in
             indirect costs in excess ofMAGNET's approved budget for the cumulative audit period
             to be considered allowable costs.

             8. Personnel Costs- TechSotve

             The draft audit report's preliminary findings indicated that- -ofindirect
             overhead costs was reported in the direct personnel line ite~Je MEP subaward.

             The audit report correctly identi.fies these expenses as indirect costs, and TechSolve
             mistakenly reported these costs as direct costs. This issue is similar to Item #6 above.
             TechSolve has three cost components that are applied to its direct costs: fringe benefits,
             overhead, and G&A. J he fringe benefit rate and overhead rate are applied to any direct
             labor charged to a project. The G&A rate is applied to the total overall direct expense
             amount and calculated overhead and friugc benefit amounts.

             TechSolve reported only G&A on the indirect line, not overhead, because the description
             on that line of the reporting foml was labeled "G&A." TechSolve reported overhead as
             par1ofthe personnel line item of the report, because the personnel overhead and fringe
             benefits wst w~s based on the: direct labm ofthe project. TechSolve d isclosed as part of
             its budget detail for those two fisca l years that the personnel line item included the
             operating department's "overhead costs"' using the approved rate from the DOC. The
             following description is taken from the May 27. 2005 State of Ohio MEP Operating Plan
             (emphasis added):

                    "Techsolvc, along with its indirect rate (G&A). also submi ts an operating
                    departmen t ''Overhead Rate" to the Indirect Cost Rate Unii of the Department of
                    Commerce.                   Rate is illcluded as a            Personnel Line Item




                                The Personnel!
                    each unit of labor for the services provided. Using this methodology as approved
                    by the Inspector Generals office, only those costs associated with each client,
                    grant or govemment contract are charged for the costs associated with providing
                    that service and nothing more." (pg. 38)




                                                          6




                                                          25 

U.S. Department of Commerce                                                                          Report No. DEN-18604 

Office of Inspector General                                                                                     Marclr 2010 





             TechSolve has revised its budget, contained in Attachment C, to correctly identify direct
             and indirect costs that were applied to the MEP subaward. This corrects the issue
             identified in the audit repon.

             Proposed Resolution: It is proposed that TechSolve be allowed to re-report its cost-sha.re
             expenses for the audit period to correctly identifY direct and indirect costs that were
             applied to the MEP subaward, and that the budget for the period be amended to
             correspond to the revised reporting. Attachment C contains the proposed revised budgets
             for FY06 and FY07 for TechSolve that would account .for the accurately defined direct
             and indirect cost~ctfully request acceptance ofthis revised budget, which
             would allow the ~of indirect overhead costs to be considered allowable costs.

             9. Other Direct Costs- TechSolve

             The drail audit report's preliminary findings identified $943,898 ofTechSolve's costs as
             questioned "other di~ect costs."

             The                                                                                     a
             fair                              as evidenced by a letter dated December 19, 2002 from
             the                                TechSolve. included as Attachment D. The value of
             the soflware to TechSolve is the cost TechSolve would have paid                      na
             typical license transaction. Instead of paying the vendor for the soflwn re license,
             however the vendor was wi                    the sofiware to TcchSolve in

                                                                           This arrangement in which
                                                                            was stntetured as a special
              and                                                        continuing for u 5-ycar period.
              Therefore, the value of a st.anda.rd membership is not a reasonable measure for the­
             lliilllilllllnembership. TechSolve appropriately reported the son ware accordi ng to its
              fair market value.

             Proposed Resoltttiou: We respectfully request acceptance of the fair market value
             ascc11ained by the vendor,                   as sufficient evi dence that the $943,898 of
             TechSolve's other direct costs be considered allowable costs.

             10. Alcoholic Beverage Expenses- TeciiSolve

             The draft audit report's preliminary findings identify $.    in questioned costs related to
             alcoholic beverage expenses.

             TechSolve has procedures in place to segregate any alcoholic bevcn1gcs out in expense
             reports so they can be eliminated from cost match reporting or from regulato1y indirect
             rate calculations. This procedure is, for the most pa.rt, highly effective. These particular
             expenses were missed in the elimination process of compili ng cost figures.

             Proposed Resolution: We do not dispute these findings.



                                                           7




                                                           26 

U.S. Department ofConunerce                                                                    Report No. DEN-18604 

Office ofInspector General                                                                                March 2010 





             11. Excess Program Income· MAGNET

             The draft audit report's preliminary findings identify that MAGNET accumulated
             $-        in program income that exceeded the amount required to pay the nonfederal
             share of project costs.

             The audit examined MAGNET's financial statements and concluded that all industrial
             revenue and event revenue was att.ributed to the MEP program. We respectfully disagree.
             The audit allocates all revenue from the Product Development Group to MEP.
             Associated revenue in the amount of~hould not be applied to the MEP
             program, as the corresponding costs were for State ofOhio funded (Edison Program)
             industrial projects for which there was industrial revenue.

             The finding concerning excess program income relates to the issue discussed in Item # I
             in this document. Item #I discusses the allocation ofProduct Development Group costs
             between MEP and the .Edison Progran1. Similarly, revenue from Product Development
             Group activities was allocated between MEP and the Ohio Edison Program in a manner
             corresponding to the allocation ofcosts. Allocating Product Devcl.opment Group revenue
             bet~veen ME~ison Pro1ram reduces the ~mount of pro~am income for.MEP
             m FY06 lo ~ from the S                        tated 111 the draft aud1t report. Therefore
             MAGNET had no excess program income in FY06.

             Proposed Resolution: We respectfully request acceptance ofthe proposed allocation of
             program revenue. Allocating revenue in a manner consistent with the allocation of costs
             between the fedcr- ·      ·. funding sources reduces the amount of program income for
             MEP in FY06 to S             from the$            a net decrease of$756,880. As a
             resul t, MAGNET had no excess program income in FY06.

             12. Excess Program Income- TecltSolve

                        audit .report's preliminary findings identify that TcchSolve accumulated
                        in program income that exceeded the amount required to pay the nonfederal
             share of project costs.
             -
             TechSoJve used a methodology for calculati ng program income that resulted in a
             determination that it had no excess program income. Therefore, TechSolve did not report
             any excess program income or request permission for carrying over any excess program
             income to the subsequent fundi ng period to use for the same purpose of the: non-federal
             share of the operating budget.

             NIST ha                    fi
                                                         .
                                             eth I I g f, gr t
                                                             :       ..   I l t
                                                                                  .      '




                                                        8




                                                        27 

U.S. Department of Commerce                                                                          Report No. DEN-18604 

Office ofInspector General                                                                                      March 2010 





                                                                    calculation methodology is
                                                  reasortao1e methodology, the calculation resulted in
             TechSolve having no excess program income to report. Since there was no calculated
             program income to report, there was no requirement for TechSolve to report excess
             program income or a need to request permission for carrying over excess program
             income.

             Proposed Resolution: We respectfully request, in absence ofa required methodology for
             determining program income, that TechSolve's detem1ination of its program income be
             accepted, resulting in no excess program income. Acceptance ofthis request would
             remedy the issue identified in the audit report. TechSolve will also revise its methodology
             for calculating program income going forward if given a specific process from NJST.

             13. Salary Allocation - ODOD

             The dra ft audit report's preliminary findings identify S-    in incorrectly allocated
             salary and benefi t charges to the MEP subaward.

             We agree that during the time period oflhe audit, ODOD applied salary and benefit
             c harges to the MEP subaward for employees who are included in the indirect costs for the
             Depnrtment.

             J>ropo.fed Resolution: We do not dispute these find ings.

             14. llltemal Coutrol Issues - MA GNET

             The drafl audit report's preliminary findings state that MAGNET's financial reporting
             system is inadequate for complete accounting of MEP activities. It also slates that
             MAGJ'\ET does not maintain sufficient property management records.

             We d isagree wi th the findings of the draft audit report. In October 2009, DCAA
             conducted an audit ofMAGNET's accounting system and found MAGNET's accounting
             system to be adequate. Attach ment F contains the s ummary of the DCAA audit.

             Propost~tl Reso/11/itm: We believe the results of lhc DCAA audi t should satis fy the
             concerns in the dra ft audit report.




                                                           9




                                                           28 

U.S. Department ofCommerce                                                      Report No. DEN-/8604 

Office ofInspector General                                                                 March 2010 





                             Attachment B --MAGNET's Proposed Budget Revision




                                                    29 

U.S. Department ofCommerce                                                                      Report No. DEN-18604 

Office ofInspector General                                                                                 March 2010 





                                                   TeCHNOlOGYOMSION
                             FY"lm1 OHlOw.H!JFACT\l.'WIG EXreHSION PNUlER$HIPPRO<:IWo4 (MEl')




                                                            30 

U.S. Department ofCommerce                                                                       Report No. DEN-/8604 

Office of Inspector General                                                                                 March 2010 





                                               TECHNOLOGY DMSION 

                        FVl006 omo ~fANtJFACTIIRINC £XT.lNSIOI'i I'ARTNRSHil' PROCRAl\1 (MD) 





                                                          31 

U.S. Department ofCommerce                                                        Report No. DEN-18604 

Office ofImpector General                                                                    March 2010 





                             Attachment C- TechSolve's Proposed Budget Revision




                                                     32 

                                                                                                                                                               ~~
                                                                                                                                                               ~Yl
                                                                                                                                                               ~ ~
                                                                                                                                                               ~~
                                                                                                                                                               .... .,
                                                                                                                                                               ::: ::t
                                                                                                                                                               ~ ~
                                                                                                                                                               ~    §
                                                                                                                                                               ~    .....
                                                                                                                                                               ., ~
                                                                                                                                                               ~~
    Optor;,ting l'iscoJ Yo¥: ..July 1, 2005 to June 30. 2008
    Budgtt Res ta1e:ment and ~.epottin_g To Cof'c~ct Incorrect Reportt•l9 ol OvE7trheMJ
                                                                                                                                                               ::: ::!
                                                                                                                                                               ~~ 

                                                                                                                                    I   ORIGINAL~




w   Tr.e ~1):)"~ l'Xrlge{ l'.eo Ove!Mad O:.st Cot'npot'le!"!l ~tac: :~ tM t:'*tSOW\C:f Ct>!>l ~rrpor.ent tSc~ Etuoget NiWt'liNe$)
w




                                                                                                                                    1 . REstAtEollf.II.>Gn 1




    T~ abOve rMHM.ed ~           NC ~ Ore 1~&uCos1 Cornp¢r~ltf\l r~es-.tf:f.."<.! tc !~ trl({:rc=l;t Cvst Co:~ &long w#.hG&A
                                                                                                                                                                    ~
                                                                                                                                                                   ~
                                                                                                                                                                    ~
                                                                                                                                                                    ::t
                                                                                                                                                                    ~
                                                                                                                                                               ~~
                                                                                                                                                               ;:, t'l'!
                                                                                                                                                               ~
                                                                                                                                                               ~
                                                                                                                                                                    1:
                                                                                                                                                               ~~
                                                                                                                                                               .... ~
                                                                                                                                                               ~"
                                                                                                                                                                             ~~
                                                                                                                                                                             ~~
                                                                                                                                                                             ~ t:l
                                                                                                                                                                             ~~
                                                                                                                                                                             ~~
                                                                                                                                                                             ~ §'
                                                                                                                                                                             ~
                                                                                                                                                                             ~'"'
                                                                                                                                                                                     s
                                                                                                                                                                             ..,~
     Opo<lling Fisc., Yoor. July 1, 2006 lo Junt 30, 2007
     Budget Re5tatem.ent 1nd RePQrting To Cotreet k'lcorroc-t Reportino of Ovethud                                                                                           ~~
                                                                                                                                                                             ~ ;:
                                                                                                                                                                             ~ ::!
                                                                                                                                                                             ~~



                                                                                                                                                   I   ORIGIIW. BUDGET   I




VJ   ~above budget h3d Ovelileed CO$t Comp¢1\cntB~ei.O .n the Personne! Co$! Compor-ent (~ 6uc:sge: Nltfatives)
~




                                                                                                                                                   I REStiiTEO BUDGET I




                                                                                                                                                                                    ::.;,
     Tho 3t'ovi: re.scated ;:,ucsgo,t na.s the! Ove-rhead CoSl CClrnc»oent rectaSS-itleC 10 tHB lf'lciroct Ccst Cett'lf>Ol'l)tlt a!Ort9 wftn G&A
                                                                                                                                                                                    ~
                                                                                                                                                                                    3.
                                                                                                                                                                                     >
                                                                                                                                                                                    ""~
                                                                                                                                                                             ~t:l
                                                                                                                                                                             :::. t"l
                                                                                                                                                                             at:
                                                                                                                                                                             - ....
                                                                                                                                                                             1'-)Qo

                                                                                                                                                                             ....
                                                                                                                                                                             ~0.,

                                                                                                                                                                             ~
                                                                                                                                                                               ~
                                                                                                                                                                                     ...
U.S. Department ofCommerce                                                                   Report No. DEN-18604 

Office ofInspector General                                                                              March 2010 



                APPENDIX      C: SUMMARY OF SOURCE AND APPLICATION OF FUNDS



                       State of Ohio Department of Development 

                    NIST Cooperative Agreement No. 70NANB5H1188 

                          July 1, 2005, through March 31, 2007 



                                                        Approved                       Receipts &
                                                               1
                                                         Budqet                        Expenses

SOURCE OF FUNDS:

Federal                                               $ 9,090,834                   $ 6,517,538
Nonfederal                                              18.181 .668                    15.070.358

Total                                                 $27.272.502                    ~2:1   58Z 896



APPLICATION OF FUNDS:

Personnel
Fringe Benefits
Contractual
Other
Supplies
Travel
Equipment
Indirect Costs

Total                                                 $27.272,503                    $21.587 896




1
    Approved budget represents amounts approved for 2-year period of Ju ly I, 2005, through June 20, 2007.


                                                          35 

U.S. Department ofCommerce                                                                  Report No. DEN-18604 

Office ofInspector General                                                                             March 2010 



                   APPENDIX D: SUMMARY OF F INANCIAL/COMPLIANCE AUDIT




                      State of Ohio Department of Development 

                   NIST Cooperative Agreement No. 70NANB5H1188 

                         July 1, 2005, through March 31, 2007 


                                                                                  Results of Audit
                           Approved             Costs             Costs             Costs                Costs
Description                 Budqet1            Claimed          Questioned        Unsupported           Accepted

Personnel                                                        $      921a                 0
Fringe Benefits                                                       6,586b                 0
Contractual                                                       6,773,534c                 0
Other                                                                     0                  0
Supplies                                                                  0                  0
Travel                                                                    0                  0
Equipment                                                                 0                  0
Indirect Costs                                                            0                 _Q
Total                    $27 .27,_503       $21,587.896d         $6,781 041                  1Q      lli 806,855

Federal Funds Disbursed 	                                            $6,517,538
Costs Incurred 	                            $21,587,896
Less Questioned Costs                         6.781 .041
Costs Accepted 	                             14,806,855
Less Excess Program Income                    1,424.266e
Basis for Federal Share                      13,382,589
Federal Cost Sharing Ratio                     X 33.33%
Federal Funds Earned 	                                                4,460,417

Refund Due the Government 	                                          $2057 121 (



(a) 	 Questioned personnel costs include two 0000 employees who were claimed in personnel costs and
      included in the indirect cost rate calculation, resulting in double claiming of costs.

(b) 	 Questioned benefit costs include costs associated with the questioned personnel costs of two 0000
      employees who were also included in the indirect cost rate calculation.

(c) 	 Questioned contractual costs include $4,095,476 claimed by MAGNET and $2,678,058 claimed by
      TechSolve, both subrecipients under the MEP award.

(d) 	 0000 reported total costs of $20,269,989 in its financial status report through March 31, 2007. We              i.
      examined the recipient's financial records and found total recorded expenditures of $21 ,587,896, or


1
    Approved budget represents amounts approved for 2-year period of July I , 2005, through June 20,2007.


                                                         36
U.S. Department ofCommerce                                                         Report No. DEN-18604 

Office ofInspector General                                                                    March 2010 



    $1 ,317,907 more than total costs reported to NIST. We reconciled the recipient's financial records
    against errors in its cost claims to NIST. We determined 0000 should have reported to NIST total
    expenditures of $21,587,896. This figure served as the basis for project costs subject to audit.

(e) 	 MAGNET and TechSolve generated program income of $1,424,266 i~f what was required
      to-the nonfederal share of project costs. MAGNET accounted for                 of the excess while
      $         was attributed to TechSolve. Neither received required prior approval to carry excess
      program income forward for use in a subsequent award peri od. We reduced the total accepted costs
      by the excess program income in computing federal funds earned by the subrecipients.

(f) 	 The refund due includes excess disbursements of federal funds in the amounts of $1, 141,150 to
      MAGNET and $848,402 to TechSolve. Our calculations of refunds due from MAGNET and
      T echSolve are summarized as follows:



                   Ohio Department of Development 

          NIST MEP Cooperative Agreement No. 70NANB5H1188 

                     Summary of Financial Audit 

                                     March 31 2007


   Costs Claimed
   Costs Questioned
   Costs Accepted
   Excess Program Income
   Basis for Federal Funds
   Federal Sharing Ratioa
   Federal Funds Earned
   Federal Funds Received
   Refund Due

  a MAGNET's and TechSolve's federal sharing ratios differ slightly between award )'ears. The
  ratios were -      percent for the period July 1, 2005, through June 30, 2006, and -    percent
  for the period July 1, 2006, through March 31 , 2007




                                                   37 

